No. 20-1426
IN THE

Supreme Court of the United States
_________
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED &
TATA AMERICA INTERNATIONAL CORPORATION (DBA TCS AMERICA),
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Reply in Support of
Petition for a Writ of Certiorari contains 2,986 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 28, 2021

/s/ Michael T. Brody
Michael T. Brody

